                        




                                     U.S. DEPARTMENT OF THE INTERIOR
                                       OFFICE OF INSPECTOR GENERAL
     

                                        INSPECTION REPORT




                           PASSPORT OFFICES FAILING TO MANAGE AND
                                 SECURE EMPLOYEE PASSPORTS

                     REPORT NO. ER-EV-MOA-0002-2008         MAY 2009
        Should you have any comments or questions regarding this report, please do not
hesitate to contact me at 202–208–5745.

cc: Assistant Secretary, Land and Minerals Management
    Assistant Secretary, Water and Science
    Assistant Secretary, Policy, Management, and Budget
    Deputy Assistant Secretary for Passport Services, Department of State
    Acting Inspector General, Department of State




                                             ii
 

               PASSPORT OFFICES FAILING TO MANAGE AND
                     SECURE EMPLOYEE PASSPORTS

                                                TABLE OF CONTENTS


Introduction ....................................................................................................................................1

DOI Cannot Account for Dozens of Passports Held by Former Employee..............................3

Violations Abound in DOI Passport Offices................................................................................4

           Document Management.....................................................................................................4

           Storage ................................................................................................................................4

                Disposal and Retention ................................................................................................6

                Tracking ........................................................................................................................6

                Training ........................................................................................................................7

Conclusion ......................................................................................................................................7

Recommendations ..........................................................................................................................8

Appendices

           Scope, Methodology, and Prior Reviews ........................................................................A

           Passport Security Requirements ..................................................................................... B
       


 
 

    INTRODUCTION 
    The U.S. passport is arguably the most coveted travel document in the
    world. Required of U.S. citizens for international travel and re-entry
    into the Country, the passport serves as official verification of the
    bearer’s origin, identity, and nationality. Each day, Americans submit
    passports as identification to board domestic flights, obtain licenses to
    drive, apply for loans, and verify their employability status.

    The most recognizable passport, the blue-cover tourist passport, is
    used to travel overseas for pleasure or to conduct private business.
    However, the U.S. Department of State (State) issues two additional
    types of passports, diplomatic and
    official. A diplomatic passport is
    carried by a federal employee or
    contractor who has been granted the
    privilege of diplomatic status
    overseas. An official passport
    identifies the bearer as a federal
    employee or contractor who
    represents the U.S. Government in an
    official capacity abroad; it does not
    convey diplomatic status. At DOI,
    only the Secretary of the Interior holds a diplomatic passport, while all
    other employees traveling overseas carry official passports.

    The Office of Inspector General estimates that there are over 3,000
    valid passports issued to current employees. These individuals fulfill a
    wide variety of duties overseas to advance the Department’s mission.
    For instance, DOI’s International Technical Assistance Program,
    established in cooperation with the U.S. Agency for International
    Development, has sent DOI employees to assist 25 countries to date.
    These staff provide skills and knowledge in fields such as endangered
    species conservation, invasive species control, and fire and water
    resource management. For other employees, travel abroad constitutes
    an integral part of their regular duties. For example, a number of U.S.
    Fish and Wildlife Service (FWS) inspectors work along the Nation’s
    borders with Canada and Mexico and routinely enter those countries.
    In addition, the Office of Insular Affairs regularly sends employees
    overseas to monitor grant funds provided to the Federated States of
    Micronesia, the Marshall Islands, and Palau under the Compacts of
    Free Association.




                                      1
                                                                            

                                                                            
                                                                            

To facilitate the issuance of passports, the Code of Federal Regulations
(CFR), in 22 C.F.R. § 51.22(b), authorizes State to designate certain
individuals as passport acceptance agents. The CFR details their
responsibilities as:
                                                                                                                    

     certifying the identity of and administering an oath to passport
                                                                                 The NBC Passport Office in
      applicants;                                                               Washington, DC, manages the
     safeguarding passport application information; and                       passport and visa process for all
     avoiding a real or perceived conflict of interest with regard to         other DOI employees. NBC has
      the passport process.                                                         two full-time passport
                                                                                      acceptance agents.
                                                                            
Currently, 10 DOI employees serve as passport acceptance agents.
Beyond the duties outlined in the CFR, these individuals are
responsible for submitting completed applications to State, distributing    
executed diplomatic and official passports to employees, obtaining any
                                                                            
required visas from foreign embassies, storing passports not needed by
travelers, reporting lost or missing passports to State, and returning
passports to State after employees separate from DOI. The passport
acceptance agents are based in one of three DOI offices. These are
the:
                                                                                                                        
     NBC Employee and Public Services Division (this office                      The USGS International
      processes passport and visa requests for all DOI offices and              Programs Office, located in
      bureaus except BOR and USGS);                                               Reston, VA, employs five
     USGS International Programs Office in Reston, VA; and                        collateral-duty passport
     BOR Native American and International Affairs Office located                 acceptance agents. One
                                                                               additional position was vacant
      in Washington, DC, and Denver, CO.                                        at the time of our inspection.
                                                                            
Diplomatic and official passport records maintained by these three
offices are subject to the Privacy Act of 1974. To protect the privacy      
of U.S. citizens, the Privacy Act places limitations on agencies’           




collection, disclosure, and use of personal information maintained in
systems of records, such as passport and visa files. According to the
Privacy Act, when agencies establish or make changes to a system of
records, they must notify the public by placing a notice in the “Federal
Register.” These notices are a primary means of establishing
accountability for privacy protections (see 64 FR 16981 (April 7,                                                   
1999) for DOI’s notice). They identify, among other things, the type        
of data collected, the location of the records, and information on how
the data are disposed of and secured.                                          The BOR Native American and
                                                                                 International Affairs Office,

 
                                                                               located in Washington, DC, and
                                                                                  Denver, CO, employs three
                                                                                   collateral-duty passport
                                                                                      acceptance agents.
                                                                            

                                                                            
                                      2
                                                                            
        
                                                                            
DOI CANNOT ACCOUNT FOR DOZENS OF 
PASSPORTS HELD BY FORMER EMPLOYEES 
The Passport Offices were unable to account for 49 expired passports, at the time of our review
that were either missing or checked out to former employees. This number could be much
higher because, unlike USGS and BOR, NBC has no passport database and could not provide us
with a comprehensive list of valid passports. Since our initial visits in February, USGS and BOR
have collected passports from some separated employees and forwarded them to State for
cancellation. While we applaud USGS and BOR for taking action immediately, DOI needs to do
much more to ensure that departing employees return their official passports.

The wide ranging examples we found involve passport holders from the highest ranks of the
Department to lower-ranking staff from a number of DOI’s bureaus and offices. For example,
the NBC Passport Office cannot locate former Secretary of the Interior Gale Norton’s diplomatic
passport, which expires in 2010. Ms. Norton resigned 3 years ago and completed an employee
exit clearance form at that time. All employees must complete these forms to ensure that they
return all Government property and fulfill their financial obligations prior to leaving DOI. An
NBC employee signed Ms. Norton’s form indicating that the passport had been returned without
actually receiving the passport. The NBC Passport Office was unable to tell us whether
Secretary Norton’s diplomatic passport was returned to State.

In addition, two former employees — a felon convicted after departing DOI and a high-level
official who was investigated for ethics rules violations while working at DOI — ostensibly
neglected to return their official passports to the NBC Passport Office (see below). We found no
evidence that NBC asked State to cancel these passports, which remained valid for months after
the employees left DOI. We found that their official passports are missing from their files in the
NBC Passport Office.

        Milton K. Dial, a former MMS employee, pled guilty to the felony charge of
         arranging a contract for a former colleague who hired him 6 months after his
         retirement from DOI. His official passport expired in February 2009, more than 4
         years after he left federal service and approximately 4 months following his guilty
         plea.

        David P. Smith, a former Fish, Wildlife, and Parks employee, was investigated twice
         during his tenure at DOI for violating ethics standards. His official passport expired
         in April 2007, 9 months after his resignation.

According to passport acceptance agents at NBC, USGS, and BOR, they are responsible for
passports but have no control over the Department’s checkout procedures. They have to trust
that current employees will return their passports between trips and that separating employees
will return their passports to the appropriate Passport Office. Furthermore, the Passport Offices



                                                3
 
     are not always informed in advance of an employee’s separation so
     that an agent can obtain the departing employee’s passport for
     return to State for cancelation. As they stand, the checkout
     procedures are not effective and need to be improved.


     VIOLATIONS ABOUND IN DOI 
     PASSPORT OFFICES 
     During our inspections of the Passport Offices, we observed
     numerous violations of federal and Departmental requirements
     governing security of passports, visas, and passport applications
     (see Table 1.) In the absence of Departmental oversight,
     responsibility for protecting sensitive documents and information
     has devolved to the bureaus. All of the Passport Offices function
     autonomously; none functions properly.

     While the problems vary across each of these offices, in general,
     we found a combination of inadequate resources, a lack of
     understanding of security requirements for passports, and an
     inability to track passports. These conditions have resulted in the
     improper storage, retention, tracking of passports, visas, and
     applications, and inadequate protection of Privacy Act information.

     Document Management

     Storage
     In 64 FR 16981 (April 7, 1999), DOI informed the public that it
     keeps passport and visa records in steel safes with manipulation-
     proof, three-way combination locks. We found, however, that the
     NBC and USGS Passport Offices store passports and visas in filing
     cabinets that are lockable only by key. The NBC Passport Office
     also stored over 400 expired passports in an unlocked drawer (see
     photograph on page 6). Furthermore, approximately 200 files
     containing passport applications and expired passports were
     stacked on unsecured shelves and spilled onto the floor just inside
     the entrance to the NBC Passport Office. These files were readily
     accessible to unauthorized personnel. (See report cover.)




                       4

. 
       Table 1. Violations of Federal and Departmental Requirements Governing 
       Security of Passports, Visa, and Passport Applications


Further, none of the Passport Offices afforded passport applications the same level of security as
passports, even though the personal information contained in completed applications (mother’s
maiden name, social security numbers, and addresses) is more sensitive than that in passports. A
case involving State illustrates the ease with which identities can be stolen using information
gleaned from passport applications. Specifically, an incident in Washington, DC, in October
2008 prompted State to notify approximately 400 passport applicants of a breach in its database
security. Police officers had stopped a vehicle and found 21 credit cards in names other than the
driver’s and printouts of eight completed passport applications. Four of the names on the
passport applications matched names on the credit cards. Investigation revealed that the driver
worked with co-conspirators at State and the U.S. Postal Service.

In fact, none of the DOI Passport Offices stored all of their passport applications in a locked safe,
cabinet, or drawer. According to the Departmental Manual (383 DM 8.2), bureaus should
implement more stringent safeguards for systems of records containing particularly sensitive
information than the minimum required because the sensitivity of such information may vary
from one system of records to another.

We were unable to determine the locations of all DOI-maintained official passports. According
to 64 FR 16981, passports and visas are kept only at the NBC Passport Office; however, we
found thousands of passports stored in the BOR Passport Office in Washington, DC, and at
USGS Headquarters in Reston, VA. The USGS and BOR Passport Offices are not listed in

                                                 5
64 FR 16981, as required. We also discovered that FWS stored passports in offices near the
U.S./Canadian border; we were unable to obtain the addresses of those offices. Without a
comprehensive list of all locations where passports are kept, DOI managers and Privacy Act
officers cannot effectively manage these records or ensure that diplomatic and official passports
                                                                 are secured appropriately.

                                                                  Disposal and Retention
                                                                  General Records Schedule
                                                                  (GRS) Number 9, which is cited
                                                                  in 64 FR 16981, requires that
                                                                  each official passport be
                                                                  returned to State upon expiration
                                                                  or separation of the employee.
                                                                  We found that the USGS and
                                                                  BOR Passport Offices kept
                                                                  expired passports on file and
                                                                  retained passport applications
                                                                  longer than federal regulations
                                                                  allowed. The passport
                                                                  acceptance agents we
            This photograph shows over 400 expired                interviewed were not aware of
            passports stored in an unlocked drawer                the GRS requirement.
                   in the NBC Passport Office. 
                                                                    Furthermore, the Privacy Act
itself states that an agency shall maintain in its records only such information as is relevant and
necessary to accomplish a purpose of the agency (5 U.S.C. § 552a(e)(1)). In addition, 22 C.F.R.
§ 51.22(e)(2) prohibits passport acceptance agents from retaining copies of executed passport
applications. DOI does not require copies of executed passport applications to effectively carry
out its mission. Nevertheless, one BOR passport acceptance agent informed us that she kept
copies of completed applications on file for up to 5 years. USGS staff also stated that they
retained copies of passport applications for up to 3 years after passports were issued.

Tracking
The Government Accountability Office (GAO) “Standards for Internal Control in the Federal
Government” states, “Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for examination. . . . All
documentation and records should be properly managed and maintained.” Unfortunately, none
of the Passport Offices has an adequate means to track the location and status of official
passports or to determine whether passports of separated employees have been returned to State,
as required.

For example, NBC has no database; when we asked for information, NBC provided an
incomplete list that only included passports processed recently. As a result, NBC could not tell
us how many valid passports it manages. In fact, the NBC Passport Office passport acceptance
agents could not locate 2 of the 20 passport files we selected for review from their records. To



                                                 6
date, these files, which likely contain Privacy Act information and may even hold the employees’
official passports and visas, remain missing.

Training
The July 2007 report titled “Common Risks Impeding the Adequate Protection of Government
Information” issued by Department of Homeland Security (DHS) and Office of Management and
Budget (OMB) (see Appendix A) identified inadequate training as one of the top 10 mistakes
federal agencies make in protecting privacy information. We also found training of DOI
passport acceptance agents to be inadequate.

Privacy Act Requirements
Even though passport acceptance agents must be certified by State before assuming their duties
and must take DOI’s annual Privacy Act training, we found that these individuals are largely
unaware of how to protect sensitive information according to regulatory and Departmental
requirements (see Appendix B). In fact, NBC and USGS failed to post Privacy Act notices in
accordance with the Departmental Manual (383 DM 8.3A). Areas where Privacy Act
information is stored should be posted with warnings regarding access limitation, standards of
conduct for employees handling such information, and possible criminal penalties for violations.
In fact, none of the Passport Offices store passports and passport-related documents in
accordance with the Act — contrary to DOI’s assertions in 64 FR 16981 (April 7, 1999).

Passport Acceptance Agent Refresher Courses
The current regimen of training given by State is also inadequate to ensure appropriate handling
of passports by acceptance agents and their supervisors over the long-term. One passport
acceptance agent stated that she completed the required training to become an agent in 1999.
She has not had a refresher course on handling passports and passport-related documents since
that time.

To address training inadequacies, DHS and OMB included best practices in their July 2007
report. We believe a number of those practices would benefit the Passport Offices. Specifically,
training could be 1) tailored to address the requirements of the Passport Offices in terms of
passport acceptance agent roles and responsibilities, 2) given upon hiring and at least once a year
thereafter, and 3) assessed regularly for its effectiveness and modified as requirements change.
Such training would exceed the standard annual Privacy Act training; it would encompass all
Privacy Act, federal, and Departmental requirements that pertain to the handling and protection
of passports and passport-related documents (see Appendix B).


CONCLUSION 
DOI and the Passport Offices are failing in their responsibility to collect passports from
departing employees, as well as to dispose of them properly, and to ensure proper storage,
retention, and handling of passports and passport applications. Their mismanagement and
inadequate protection of diplomatic and official passports violate law and federal and
Departmental regulations. As a result, they have openly invited misuse of U.S. passports; cases
of fraud or theft of employee identities could easily result.

                                                 7
RECOMMENDATIONS 
By implementing the following recommendations, we believe DOI can address the problems
identified in this inspection.

We recommend that the Secretary direct the Department to:

   1. Issue a revision of 64 FR 16981 to accurately reflect the location of the passport offices
      and to update any other items that might be in error or outdated.

   2. Issue a revision of 383 DM 8.3B to be consistent with the standards laid out in 64 FR
      16981 regarding the storage of passports and passport applications.

   3. Require that passport acceptance agents undergo regular training on federal and
      Departmental standards governing the managing and securing of passports and passport-
      related information (see recommendation 4 below).

We recommend that the Secretary direct NBC, USGS, and BOR to:

   1. Develop a process to ensure that passports, visas, and passport applications are stored,
      retained, disposed of, and tracked in accordance with federal (Privacy Act) and
      Departmental regulations. Particular attention should be paid to making sure employees
      return their diplomatic and official passports to DOI before separating and notifying State
      of any uncollected passports.

   2. Destroy passport applications once State issues the corresponding passports.

   3. Post Privacy Act notices clearly wherever passports, visas, and passport applications are
      stored.

   4. Consult with State regarding the provision and content of regular training to DOI
      passport acceptance agents on federal and Departmental standards that govern the
      managing and securing of passports and passport-related information.




                                                8
 

SCOPE, METHODOLOGY, AND PRIOR REVIEWS 
The objective of our inspection was to determine whether DOI has collected passports from
separating employees, as well as disposed of them appropriately and secured passports, visas,
and passport applications in accordance with federal and Departmental regulations.

We conducted this inspection from January to March 2009, in accordance with the “Quality
Standards for Inspections” issued by the President’s Council on Integrity and Efficiency. To
accomplish our objectives, we:

     attempted to gain unauthorized access to the NBC and BOR Passport Offices;

     observed the passport application process by submitting an application for an OIG
      employee who required a passport for official travel;

     performed an unannounced inspection of the BOR, NBC, and USGS Passport Offices on
      January 29, 2009;

     interviewed passport acceptance agents at the NBC Passport Office in Washington, DC;
      the USGS Passport Office in Reston, VA, and the BOR Passport Office in Washington,
      DC, and Denver, CO regarding passport security and the process for disposing of
      passports;

     selected a sample of 52 DOI passport holders to determine whether the passport
      acceptance agents could account for these employees’ passports; and

     determined whether employees who separated from DOI before February 1, 2009,
      returned their diplomatic and official passports prior to leaving the Department.

Prior Reviews
Over the past 5 years, GAO has issued several reports related to the physical security over
passports, passport fraud, and protection of Privacy Act information. The following reports were
most applicable to our inspection of the DOI Passport Offices:

     “Addressing Significant Vulnerabilities in the Department of State’s Passport
      Issuance Process,” Statement of Jess T. Ford, Director, International Affairs and
      Trade and Gregory D. Kutz, Managing Director, Forensic Audits and Special
      Investigations, Correspondence to the Senate Committee on the Judiciary
      (Subcommittee on Terrorism and Homeland Security), Report No. GAO-09-583R,
      Issued April 13, 2009. In their correspondence to the Senate, Mr. Ford and Mr. Kutz
      reported that State Department continues to face significant fraud vulnerabilities in their
      passport issuance process. They recounted that a GAO undercover investigator easily
      obtained genuine U.S. passports using counterfeit or fraudulently obtained documents.



                                               A-1
       Reducing these risks, according to officials at State, will require greater cooperation
       between State and other agencies at both the federal and state levels, including the need
       to access electronic records of other agencies in real time.

    “Security of New Passports and Visas Enhanced, but More Needs to Be Done to
     Prevent Their Fraudulent Use,” Report No. GAO-07-1006, issued July 2007. GAO
     reported that State did not have a structured process to periodically reassess the
     effectiveness of passports’ security features against evolving threats or to actively plan
     for new generations of passports. The report also noted that State lacked a program to
     oversee thousands of passport acceptance facilities, which verify the identity of millions
     of passport applicants each year. Such a program, according to GAO, would help
     minimize the risk of passport fraud.

    “Preventing and Responding to Improper Disclosures of Personal Information,”
     Statement of David M. Walker, Comptroller General, Before the House Committee
     on Government Reform, Report No. GAO-06-833T, issued June 2006. In his
     testimony, the Comptroller General addressed a security breach at the Department of
     Veterans Affairs, in which the personal data of millions of veterans were compromised.
     Although the testimony largely discussed information technology security, the
     Comptroller General noted that practical measures aimed at preventing inadvertent data
     breaches include limiting the collection of personal data, limiting the time that such data
     are retained, limiting access to personal information, and training personnel accordingly.

    “Improvements Needed to Strengthen U.S. Passport Fraud Detection Efforts,”
     Report No. GAO-05-477, issued May 2005. GAO reported that State faced a variety of
     challenges to its passport fraud detection efforts, making it more difficult to protect U.S.
     citizens from terrorists and criminals. For instance, information listed in the
     Government’s consolidated terrorist watch list was not systematically provided to State.
     Furthermore, State did not routinely obtain from the Federal Bureau of Investigation the
     names of individuals wanted by federal or any of the States’ law enforcement authorities.
     As a result, the Consular Lookout and Support System database did not contain
     information on a number of fugitives suspected of murder, child sex offenses, drug
     trafficking, and other heinous crimes. In addition, GAO noted that State made oversight
     visits to only a limited number of passport acceptance facilities each year and did not
     maintain records of all individuals authorized to accept passports at those locations.

We noted one additional report applicable to security over privacy information, which
Department of Homeland Security and the Office of Management and Budget prepared in
response to a request made by the President’s Identity Theft Task Force:

    “Common Risks Impeding the Adequate Protection of Government Information,”
     issued July 2007 by the Department of Homeland Security and the Office of
     Management and Budget. This report highlighted 10 “mistakes” commonly made by
     Government agencies entrusted with security and privacy information. It also detailed
     best practices and resources to help agencies avoid and mitigate these risks. The
     common mistakes included: 1) inadequate security and privacy training;

                                              A-2
2) missing safeguarding procedures from contracts and data sharing agreements between
agencies; 3) inaccurate information inventories that do not correctly describe where
information is stored; 4) incorrect or inappropriate scheduling, archiving, or destroying of
information; 5) untimely identification and reporting of suspicious activities and security
incidents; 6) inadequate or absent audit trails documenting information processing; and
7) insufficient physical security controls over privacy information; 8) inadequate
information security controls; 9) insufficient protection of information accessed or
processed remotely; and, 10) premature use of information technology and products
before application of security and privacy standards and guidelines.




                                        A-3
                                                                         Appendix B
 

PASSPORT SECURITY REQUIREMENTS 

                           •Passport acceptance agents must not retain copies 
    22 CFR § 51.22(e)(2)    of executed passport applications.




                           •The sensitivity of personal information may vary 
                            from one system of records to another.  Bureaus 
        383 DM 8.2          should implement safeguards beyond the required 
                            minimum for systems of records containing 
                            particularly sensitive information.



                           •The area where Privacy Act information is stored 
                            should be posted with warnings regarding access 
       383 DM 8.3A          limitation, standards of conduct for employees 
                            handling such information, and possible criminal 
                            penalties for violations.



                           •At all times, access to Privacy Act records should 
                            be restricted by storing the records in a locked 
       383 DM 8.3B          metal file cabinet or locked room, except when the 
                            room is occupied by authorized personnel.



                           •Passports and visas are stored in a steel safe with 
                            a manipulation‐proof, three‐way combination 
        64 FR 16981         lock.
       (April 7, 1999)     •Passports and visas are retained and disposed of 
                            in accordance with General Records Schedule No. 
                            9.




     General Records       •Official passports should be returned to State 
                            upon expiration or upon separation of the 
     Schedule No. 9         employee.




                                    B-1
 
